'*<

(g Becker Gallagher
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No.
Dean A. Koch,
Petitioner,
v.

State of Ohio, Department of Natural
Resources, Division of Wildlife; James
Zehringer, Director, Department of Natural
Resources, Sued in Both His Individual and
Official Capacities; Scott Zody, Chief,
Department of Natural Resources, Division of
Wildlife, Sued in Both His Individual and
Official Capacities; Randall J. Meyer, Inspector
General, Sued in Both His Individual and
Official Capacities; Gino Barna, Ohio Wildlife
Officer, Erie County, Ohio, Sued in His
Individual and Official Capacities; Brian Bury,
Ohio Wildlife Officer, Erie County, Ohio, Sued
in His Individual and Official Capacities; Gary
Manley, Ohio Wildlife Officer, Erie County,
Ohio, Sued in His Individual and Official
Capacities,
Respondent.
As required by Supreme Court Rule 33.1(h), I certify
that the Petition for Writ of Certiorari contains 13
pages and 3,698 words excluding the parts of the
Petition that are exempted by Supreme Court Rule
33.1(d).

Becker Gallagher Legal Publishing Incorporated

8790 Governor’s Hill Drive

Franklin Square

(800) 890.5001
www.beckergallagher.com

Suite 102

1300 I Street, NW, Suite 400E
Washington, DC 20005

Cincinnati, Ohio 45249

I declare underpenalty of perjury that the foregoing
is true and correct.
Executed on August 27, 2021.

ModA
Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor’s Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Sworn to and subscribed before me by said Affiant
on the date designated below.

Notary Public
[seal]

JOHN D. GALLAGHER
:. s*) Notary Public, State of Ohio
1
/ My Commission Expires
rebmar',14‘2023

2

